                       National Archives and Records Administration
                                                                                            8601 Adelphi Road
                                                                           College Park, Maryland 20740-6001

Date       : October 26, 2005
Reply to
Attn of    : Office of Inspector General (OIG)

    : Management Letter No. 06-05, Flawed Contract Performance Work Statement could have
Subject
Adverse Impacts on NARA’s Budgetary Resources

To:         Allen Weinstein, Archivist of the United States (N)

            In the written response to draft audit report, “Review of Modifications Made to the
            Performance-Based Task Order for Information Technology Support Services,” and in a
            subsequent exit briefing, the Director of the Acquisition Services Division (NAA) stated that
            a “flawed” Performance Work Statement (PWS) for the Information Technology Support
            Services (ITSS) task order contributed significantly to some of the major problems identified
            in the report 1 . He attributed the “flawed” work statement to failures on the part of the
            government in drafting this document. Because the work statement represents the basic
            understanding between the contractor and the government as to the scope of work to be
            accomplished, any failure by the government to adequately define the work to be performed
            could result in significant, unplanned increases in the funding required to manage and operate
            the agency’s computer network.

            We are now in the second option year of the task order which consists of a base year and four
            options, and the period of performance extends from October 1, 2003, through September 30,
            2008. The total amount of the original task order was approximately $52.08 million, if NARA
            exercises all four options.

            Experience, to date, suggests that the contractor is likely to continue proposing task order
            modifications that could result, if approved by the government, in significant, unplanned
            increases in the funding required to acquire information technology support services for the
            agency. Since the completion of our audit, the contractor has requested additional funds to
            establish a network security program. We reviewed the appropriateness of this proposed task
            order modification and determined that it duplicated the network security program effort required
            by the original task order. During our review, management officials cancelled this inappropriate
            modification which would have required NARA to pay an additional $3.23 million to $5.22
            million, depending on the outcome of negotiations with the contractor. The results of our review
            of this modification were presented to you in Audit Memorandum No. 05-19, Review of
            Proposed Modification of the Information Technology Support Services Task Order Security
            Program Requirements, dated July 6, 2005. In addition, during a meeting with Office of
            Administrative Services (NA) officials to discuss the audit results, the NAA Director told us that

1
 Comments made by the NAA Director are highlighted in the attached Management Comments on OIG Report no. 05-18,
Review of Modifications Made to the Performance-Based Task Order for Information Technology Support Services.


                                        NARA’s web site is http://www.nara.gov
he is constantly bombarded with contractor requests for additional funding. Considering the
adverse impact that this situation could have on NARA’s limited budgetary resources and/or
accomplishment of information technology support requirements, we felt compelled to bring this
situation to your attention.

If a decision is made to continue with the current, NAA-described flawed task order statement of
work, we suggest that you direct the NAA Director to strongly emphasize to contracting
personnel that they must exercise increased caution when approving modifications that call for
additional funds to be added to the ITSS task order. An alternative that you may want to
consider is either terminating the ITSS task order, or not exercising remaining options, and
establishing a new contract vehicle for acquiring IT support services.

Please respond by November 17, 2005, with the action(s), if any, to be taken to remedy this
condition. We will follow-up at a later date, if necessary, to determine if corrective action was
taken and whether the action taken was sufficient to correct the condition, or to determine if the
problem still persists. If you have any questions concerning the issue discussed in this
Management Letter, or you require additional information, please contact me.




Paul Brachfeld
Inspector General


Attach: Management Comments on OIG Report no. 05-18, Review of Modifications Made to
the Performance-Based Task Order for Information Technology Support Services.




                            NARA’s web site is http://www.nara.gov
